WAIVER

SUPREME COURT OF THE UNITED STATES

KD and JD, Parents, Natural

  

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
Oo lam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s)
s County School District No. 001 ai!

   

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Cler¥es) i's re |E, Washington, D.C. 20543).

  
  

Signature:

Date:

 

(Type or print) Name bi Robb Ackerman a |

O mr. © Ms. O mrs. O Miss

Firm Baird Holm LLP
Address 1700 Farnam St, Suite 1500
City & State Omaha, NE

Phone (402) 344-0500 Email rackerman@bairdholm.com

 

  

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

David Donna
(Clarence E. Mock, Ill

Brian Robeson |

  
  

ce:

 
